Office of Inspector General


July 16, 2014



Mr. Kamran Khan
Vice President, Department of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

SUBJECT: Review of the Millennium Challenge Account Employee Compensation (Report No.
M-000-14-003-S).

Dear Mr. Khan:

This letter transmits the Office of Inspector General’s nonaudit report on the “Review of the
Millennium Challenge Account Employee Compensation.” In finalizing the nonaudit report, we
considered your written comments on our draft report and included those comments in their
entirety in Appendix II of this report.

The report contains eight recommendations. Management decisions have been reached on
Recommendations 1, 2, 3, 4, 5, 6, 7, and 8, and final action has been taken on 6. However, we
disagree with MCC’s management decision and final action on Recommendation 8.

We appreciate the cooperation and courtesy extended to our staff during this review.



                                            Sincerely,

                                            /s/

                                            Melinda Dempsey
                                            Deputy Assistant Inspector General
                                            for Audit




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
http://oig.usaid.gov
SUMMARY
The Millennium Challenge Corporation (MCC) provides countries with funding for projects
through 5-year compacts geared to stimulate economic growth. Each compact is administered
through a Millennium Challenge Account (MCA) that the compact country’s government
establishes. The MCA has the legal authority to oversee implementation of the compact.

Though partner governments have flexibility in the way MCAs are structured, all MCAs so far
have been newly established government units or departments with special authority to offer
market-based compensation to attract qualified employees.

Hiring high-quality key staff and providing them competitive compensation is fundamental to the
sound organizational effectiveness and management of MCAs; they are critical to the successful
implementation of projects. Further, while MCAs must attract and retain quality key staff by
offering them competitive compensation, it is vital that the compensation also be cost-effective
to maximize funds available for compact implementation. For the purpose of this review, “cost-
effective” means the best value for the money spent based on sound administrative and
professional judgment.

Each MCA has a management unit that includes the following key staff positions:

•   chief executive officer (sometimes referred to as the director general, national coordinator,
    or managing director)

•   deputy chief executive officer (sometimes referred to as the chief operating officer)

•   chief financial officer

•   legal advisor

•   director of procurement

•   director of environmental and social assessment

•   director of monitoring and evaluation

•   project directors for each major project under the compact

These employees are responsible for managing the MCA and implementing the compact in
coordination with the MCA board of directors and oversight by MCC headquarters, technical,
and resident mission staff. Although MCA staff are employed by the host country’s government,
the MCAs are guided by certain MCC policies and procedures designed to ensure that compact
funds are spent efficiently and effectively.

The compact country governments work with MCC to recruit key staff. Although these positions
are competitively recruited locally, regionally, or internationally, depending on the availability of
applicants with the necessary skills, it is common for the chief executive officer position to be
filled by a person with close ties with the compact country government.



                                                                                                   1
While MCAs are structured similarly, they vary greatly in the number of employees they have
and their administrative budgets due to compact size and complexity. Based on an Office of
Inspector General (OIG) survey conducted in September 2013, 1 the number of employees at
MCAs (excluding consultants) ranged from 18 to 80. Ninety-nine percent of the key employees
were from the MCA compact country, and 17 percent previously served as a member of the
government’s team that established the MCA compact.

MCA administrative budgets also varied widely from $1,534,837 to $47,652,628. Accordingly,
MCA salary costs as a component of administrative costs ranged from 25 to 92 percent of the
administrative budget—and on average constituted roughly 58 percent of MCA administrative
budgets. Table 1 in Appendix III provides more detailed information on the administrative
budgets and staffing costs.

The objective of this review was to determine whether MCC’s compensation methodologies
provided cost-effective staffing at the MCAs. OIG found that MCC could not be assured that its
methodologies resulted in MCAs implementing cost-effective compensation practices. The
MCAs developed and implemented compensation practices in different ways with limited input
from compensation specialists. Therefore, MCC cannot be assured that MCAs were using cost-
effective practices and that their administrative costs were reasonable.

In particular, OIG found the following issues when conducting this review.

•     MCC gave limited guidance to MCAs on compensation practices (page 4). MCC’s
      compensation methodologies, including its guidance, policies, and practices, did not provide
      specific criteria for MCAs to use when establishing their own policies and practices. Nor did
      MCC’s guidance sufficiently address the specific roles and responsibilities of MCC and MCA
      officials involved in MCA compensation decisions.

•     MCC did not maintain all MCA key personnel employment agreements at headquarters
      even though this was a MCC policy requirement (page 6).

•     MCC employees did not systematically share their experiences and methodologies (page 7).
      Therefore, information about successful and unsuccessful practices was lost.

•     MCAs did not always hire key staff before compacts entered into force (page 8). Filling these
      positions beforehand was critical for program implementation because it marks the start of
      the 5-year period MCAs have to complete projects.

To address these concerns, OIG recommends that MCC’s Vice President, Department of
Compact Operations:

1. Implement comprehensive, specific guidance for MCAs on key staff compensation practices
   such as determining salaries, conducting performance evaluations, and awarding
   performance-based bonuses, and (2) determine and document if and how MCC should use
   compensation specialists to help develop the guidance (page 5).

2. Require MCAs to establish the roles and responsibilities for all those involved in the
   oversight process for MCA key staff compensation decisions, and address the role of
   compensation specialists and how and when MCAs should use them, and (2) specify which
1
    See Table 4 in Appendix III for the OIG survey questions.

                                                                                                 2
   documents pertaining to MCA staffing and compensation should require a MCC formal no-
   objection (page 5).

3. Require MCAs to conduct and document periodic reviews to verify that Recommendations 1
   and 2 are implemented (page 5).

4. Implement a training plan for MCA officials with oversight responsibilities for compensation
   practices and decisions (page 5).

5. Implement and document a comprehensive, systematic approach to confirm that compact
   records, including key staff records, are retained at MCC headquarters in compliance with its
   Policy and Procedures for Compact-Related Federal Recordkeeping (page 7).

6. Designate the responsibility for overseeing MCA compensation (page 7).

7. Implement a systematic method of sharing information about MCA compensation practices
   among headquarters and MCA employees (page 8).

8. Implement an action plan to hire key staff before a compact enters into force in accordance
   with MCC’s Guidelines for Accountable Entities and Implementation Structures (page 8).

Detailed review results appear in the following section, and Appendix I describes the review
scope and methodology. MCC’s management comments are included in Appendix II without
MCC’s attachments, and our evaluation of management comments is included on page 10 of
the report. Appendix III contains supplemental information referred to in this report.




                                                                                              3
REVIEW RESULTS
MCC Provided Limited Guidance on
MCA Compensation Practices
Sound operational guidance is integral in assuring an organization’s management that its
operations are carried out effectively and efficiently, its assets are safeguarded, and its policies
and procedures are carried out consistently.

MCC, however, provided limited guidance and training to MCAs on key staff compensation
practices, such as establishing salaries and performance evaluations, determining performance-
based bonuses, and monitoring salaries in the marketplace. Further, the guidance did not
clearly define the roles and responsibilities of the officials involved with implementing
compensation practices, nor did it address the role of compensation specialists in setting or
implementing guidance. OIG found that MCC policies and MCA governing documents 2 had
imprecise language related to MCA compensation criteria or did not address important issues.
Nor was all of this information consolidated into one document.

Salaries. Though MCC guidance stated that MCAs could use salary surveys as a basis for
determining salaries for key staff positions, it did not provide any guidance on how to prepare or
use the surveys.

MCC and MCA Oversight. MCC provided limited guidance on the roles and responsibilities of
those involved in MCA compensation decisions, such as the MCC staff, MCA board of directors,
and the MCA fiscal agents who were hired to process payments on behalf of the MCAs. MCA
officials said MCC’s guidance was limited, and they needed a better understanding of
compensation issues. MCC guidance did not require any of the MCC or MCA officials involved
in compensation decisions to have a professional background or technical expertise in
compensation and benefits, nor did it provide information on the role and use of compensation
specialists.

Performance Evaluation Systems and Performance-Based Bonuses. MCC guidance did
not provide standards for conducting performance-based evaluations of key staff positions or for
determining performance-based bonuses.

Monitoring Salaries in the Marketplace. Monitoring changes in the marketplace would allow
MCC to confirm that MCA salaries were competitive and in line with prevailing local wages, but
MCC had no guidance on this subject.

MCC officials said they preferred not to give MCAs specific guidance; instead, MCC offered
them the flexibility to develop and implement their own compensation practices. The officials
said MCAs were country-led units that should have decision-making autonomy.

Although MCC officials said they recognized the need to provide proper oversight, they did not
review the MCAs regularly to assess how compensation decisions were made.

2
 MCC Guidelines for Accountable Entities and Implementation Structures, MCC Cost Principles, MCC
Standards of Clearance, MCC antifraud and corruption policy, MCA program implementation agreements,
MCA fiscal accountability plans, MCA fiscal agent agreements, and MCA board by-laws.

                                                                                                  4
OIG found that other donors, such as USAID and the World Bank, provided standard guidance
on compensation issues for their local country staff tailored to address local labor laws,
practices, and prevailing wages. Other donors also had compensation specialists involved with
developing and implementing their respective policies and practices.

Without specific compensation guidance to follow and limited training, MCAs engaged in uneven
compensation practices and ad hoc decision-making, thereby limiting MCC’s assurance that
cost-effective compensation practices were in place and that MCA administrative staffing costs
were reasonable.

Moreover, varied understandings among MCAs about MCC’s approval process for MCA key
staff compensation practices resulted in an increased risk for improper, fraudulent behavior. For
example, the chief executive officer of one MCA was terminated because of concerns over
improper salary and bonus payments, due in part to weaknesses in oversight provided by MCC
and MCA officials.

Even though MCA compensation practices will vary by MCA due to country-specific
circumstances and labor laws, establishing specific guidance for the MCAs would give MCC
greater assurance that its methodologies were cost-effective and consistently applied. To
address this concern, OIG makes the following recommendations.

   Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, (1) implement comprehensive, specific
   guidance for Millennium Challenge Accounts on key staff compensation practices such
   as determining salaries, conducting performance evaluations, and awarding
   performance-based bonuses, and (2) determine and document if and how the
   Millennium Challenge Corporation should use compensation specialists to help develop
   the guidance.

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, require that (1) each Millennium
   Challenge Account establish the roles and responsibilities for all those involved in the
   oversight process for Millennium Challenge Account key staff compensation decisions,
   including the role of compensation specialists and how and when they should be utilized,
   and (2) the Millennium Challenge Corporation specify which documents pertaining to
   Millennium Challenge Account staffing and compensation should require a Millennium
   Challenge Corporation formal no-objection.

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, require Millennium Challenge Accounts
   to conduct and document periodic reviews to verify and ensure that Recommendations 1
   and 2 are implemented.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, implement a training plan for Millennium
   Challenge Account officials with oversight responsibilities for compensation practices
   and decisions.




                                                                                               5
MCC Did Not Maintain All MCA Key
Personnel Employment Agreements at
Headquarters
MCC’s 2012 Policy and Procedures for Compact-Related Federal Recordkeeping states: 3

       It is essential that records related to the development, implementation and
       closure of Compacts are maintained in accordance with the Federal Records Act.
       MCC has determined that country-specific program records, defined here as
       “Compact Management Records,” . . . must be maintained at MCC headquarters
       both during compact development and implementation, as well as after the
       program closure of the Compact.

MCC headquarters was required to maintain:

       Form of Employment Agreement and any requested deviations, as well as any
       final Employment Agreements for key staff as defined in the Governance
       Documents specifically approved by MCC.

MCC, however, could not provide OIG with employment agreements for 7 of 11 closed
compacts. One of the seven was eligible for a second compact. MCC also could not readily
provide employee agreements for active compacts; the information came about 6 weeks after
OIG’s request.

MCC’s delayed and incomplete response to OIG’s request for MCA employment agreements
was due to several factors. Some records were not being stored at headquarters as required,
and MCC country teams had different methods for storing compact records. Additionally, MCC
did not have a verification process in place to confirm that these records were being stored.

MCC officials said implementing their record-keeping policies had not been an organizational
focus until recently. They added that they had been working to improve their data and records
management over time, especially in response to the June 2013 Government Accountability
Office Review of Compact Records and Information Management Program for MCC. 4

Because MCC does not have an organized approach to record keeping for compact files—
including MCA compensation files—it does not comply with its policy. In addition, MCC risks
losing critical historical information that MCC officials could use when establishing new
compacts. This is especially important for countries where MCC is establishing
second compacts because they may have to spend resources unnecessarily to duplicate
information related to country-specific compensation laws and practices. To address this
deficiency, this review makes the following recommendation.




3
  This policy was an updated version of MCC’s 2007 Recordkeeping Procedures for the Implementation
of Compacts, which included the same requirement for storing MCA key staff employment agreements.
4
  The review also found that MCC does not require, and has not conducted, periodic reviews to determine
whether it has received all compact management records from the accountable entities consistent with
federal internal control standards. GAO recommended that MCC “develop a policy requiring—and
conduct—periodic reviews of its compact management records to ensure they are complete.”

                                                                                                     6
   Recommendation 5. We recommend that the Vice President of Compact Operations
   document a comprehensive, systematic approach to confirm that compact records,
   including key staff records, are retained at Millennium Challenge Corporation
   headquarters in compliance with its Policy and Procedures for Compact-Related Federal
   Recordkeeping.

MCC Did Not Systematically Share
Information
Maintaining and sharing information are key aspects of managing an organization. Doing so in a
systematic way increases organizational efficiency through reducing costs, facilitating decision-
making, and enhancing innovation.

However, MCC’s Department of Operations did not have a systematic approach for sharing
information on MCA staffing processes and practices. Instead, MCC and MCA staff relied on
information that they shared informally. For instance, when establishing an MCA, MCC and
country officials were limited to their firsthand knowledge and experiences, and the ad hoc
sharing of materials.

OIG also found that MCA officials from one country visited another MCA to learn about
establishing an MCA office, but this was not standard practice. MCA officials whom OIG
interviewed encouraged MCC to provide more information, training, and opportunities for peer-
to-peer exchanges, especially because they had to develop some items from the beginning,
which they said was time-consuming.

Furthermore, MCC officials said that various knowledge-sharing initiatives enacted in the past
few years did not address the topic of MCA staffing and compensation. For example, an MCC
official said that in 2009 MCC’s Department of Compact Development began an effort to
develop a “tool kit” focused on MCA staffing and compensation, but this never
materialized. Similarly, in 2011 MCC developed a systematic approach to capture practices and
processes of MCC administrative and technical functions, but it did not address the topic of
MCA staffing and compensation.

As previously mentioned, several MCC employees, including those from country programs,
fiscal accountability, and legal, are involved in making compensation decisions. However, MCC
did not have one person responsible for overseeing MCA compensation, further complicating
the easy exchange of information. MCC officials said instituting a systematic method for sharing
information or appointing a MCC official for MCA compensation issues had not been an
organizational focus.

Without a systematic approach for recording and sharing information about MCA staffing and
compensation, good practices and important lessons learned were lost. Consequently,
unnecessary amounts of MCC and MCA staff time and funds can be spent searching for similar
information. To address this concern, this review makes the following recommendations.

   Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, designate the responsibility for
   overseeing Millennium Challenge Accounts compensation.




                                                                                               7
      Recommendation 7. We recommend that the Millennium Challenge Corporation’s Vice
      President, Department of Compact Operations, implement a systematic method of
      sharing information about Millennium Challenge Account staffing and compensation
      materials, tools, and approaches among headquarters and Millennium Challenge
      Account employees.


OTHER MATTER
MCAs Did Not Always Hire Key Staff
Before Implementation
MCC’s Guidelines for Accountable Entities and Implementation Structures states:

          The appointment of key staff is subject to MCC approval. The process for
          selecting the key staff should commence as soon as possible and should be
          completed prior to entry into force of the Compact.

MCA officials said hiring key staff before entry-into-force was critical because it marks the
official start of the 5-year period MCAs have to complete all compact projects. Recognizing this,
MCC increased the preparation time given to MCAs between signing the compact and entering
into force from 3 months in some of its earliest compacts to more than 1 year in more recent
ones. 5

However, OIG found that 8 of the 13 MCAs reviewed did not select all key staff before entry into
force. The situation varied among MCAs as to the number, type, and the amount of time key
staff positions remained unfilled; the latter usually ranged from 1 month to several months after
entry into force, as shown in Table 2 in Appendix III. For instance, 5 of 13 key employees at one
MCA were not selected before implementation, and in another MCA, at least 5 of 16 were
selected 2 to 3 months after implementation, even though this MCA had more than 18 months
to prepare for entry into force.

MCC officials said the staffing situation at each MCA was unique, and therefore, varying factors
influenced the timing of hiring key staff. For instance, senior key staff positions such as the chief
executive officer and deputy chief executive officer were hired first so they could provide input
on the selection of other key staff. If their hiring was delayed—for example, because the
accountable entity’s legal structure had not been finalized or because of difficulty finding
appropriate candidates—this could cause a domino effect in hiring the rest the staff. MCC
officials also said the recruitment search remained active until MCC and the MCA agreed that
they had found the appropriate person, rather than appointing someone who might not be able
to handle the job’s responsibilities.

By not having MCA key staff in place before implementation, MCC increased the risk that MCAs
would not meet compact program goals and jeopardized the compact countries’ potential for
economic growth. To address this concern, we make the following recommendation.




5
    Go to http://www.brookings.edu/research/papers/2008/12/millennium-challenge-rieffel.

                                                                                                   8
Recommendation 8. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, implement an action plan to complete
the hiring of key staff before compact implementation in accordance with its Guidelines
for Accountable Entities and Implementation Structures.




                                                                                          9
EVALUATION OF MANAGEMENT
COMMENTS
OIG has reviewed MCC’s comments in response to the draft report, which are included in their
entirety in Appendix II. MCC agreed with Recommendations 1, 2, 3, 4, 5, 6, and 7, but
disagreed with Recommendation 8. MCC took final action on Recommendation 6 and 8. Our
evaluation of comments follows.

Recommendation 1. MCC agreed to evaluate its overall processes and procedures for MCA
key staff compensation practices. The review will assess if and how MCC should use
compensation specialist(s) to help develop MCC guidance on MCA compensation practices or
implementation thereof. This review process has a completion target of September 30, 2014,
and is intended to include recommendations to enhance the professionalization of the human
resources function at MCAs. Upon completion of the review, MCC will establish a working group
to develop comprehensive guidance on MCA compensation practices, processes, and
procedures, and other review recommendation steps focused on human resources. OIG
acknowledges MCC’s management decision.

Recommendation 2. MCC agreed to give MCAs greater guidance on establishing the roles and
responsibilities for all those involved with the oversight process for MCA key staff compensation,
including information on when it may be necessary for MCAs to use a compensation specialist.
The guidance also will reflect enhancements to MCC’s formal oversight role on MCA human
resources issues.

MCC has already begun to take steps to implement this recommendation. On April 1, 2014,
MCC released a revised Cost Principles for Accountable Entity Operations, which addresses in
more detail the issue of MCA employee compensation. MCC also revised its Addendum to
Section III, standards of clearance for key personnel; it now requires additional MCC clearances
and approvals on new MCA employee compensation packages. OIG acknowledges MCC’s
management decision.

Recommendation 3. MCC agreed that it needs to have MCAs conduct periodic reviews to
verify that Recommendations 1 and 2 are implemented; therefore, it plans to establish a review
process. MCC also stated that on August 7, 2013, OIG approved MCC Guidelines for Financial
Audits Contracted by Millennium Challenge Corporation’s Accountable Entities; this requires
auditors to review MCA compensation structures as part of their periodic financial statement
audits of MCAs. This is in addition to the revisions of Addendum to Section III, standards of
clearance for key personnel, which now requires increased oversight and reporting
requirements for new and existing MCA employee compensation packages. OIG acknowledges
MCC’s management decision.

Recommendation 4. MCC agreed that its Department of Compact Operations and its Office of
General Counsel will codevelop and coimplement a training plan for each individual MCA’s
board of directors on MCA employee compensation by September 30, 2014. OIG acknowledges
MCC’s management decision.

Recommendation 5. MCC agreed that compact implementation support teams (ISTs) will
retain MCA key staff selection and compensation records at MCC headquarters in Washington.

                                                                                               10
MCC will document the record retention process by September 30, 2014. OIG acknowledges
MCC’s management decision.

Recommendation 6. MCC agreed that each IST is responsible for overseeing compensation
issues for each MCA. MCC’s view is that the individual ISTs have the best knowledge of their
respective compact partner country’s unique local labor laws and practices. OIG acknowledges
MCC’s management decision and final action.

Recommendation 7. MCC agreed that it needs to share information on compact
implementation processes more regularly, including MCA staffing and compensation materials,
tools, and approaches among MCC and MCA employees. It is therefore developing a Web
platform, MCA-1, for this purpose, and that is scheduled to be given to MCAs during the
third quarter of FY 2014. However, MCC noted the sensitive, confidential nature of certain
compensation documents would not lend themselves to being shared.

Additionally, MCC is considering expanding participation of its “fiscal college” training to include
MCA employees of compacts that are in early development or in the closeout phase to facilitate
greater exchange of information. OIG acknowledges MCC’s management decision.

Recommendation 8. While MCC officials said they concur with OIG that key staff should be
hired before a compact is implemented, they disagreed with our recommendation to develop an
action plan to hire MCA key staff members before implementation in compliance with MCC’s
Guidelines for Accountable Entities and Implementation Structures. The officials said they
already have sufficient processes in place to meet the hiring needs of compact programs.

Although OIG acknowledges MCC’s management decision, we disagree with it. As we
explained in the finding, 8 of the 13 MCAs we reviewed did not select all key staff before entry
into force. Therefore, the processes in place are not working or are not being enforced. MCC
officials should either adopt additional measures to ensure compliance with its policy, or
consider revising it. Until we see a plan for how this problem will be addressed, we do not
consider that final action has been taken.




                                                                                                   11
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance review in accordance with the quality standards for inspection
and evaluation issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency. These standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with the review objective. We believe that the evidence obtained provides that
reasonable basis.

The review objective was to determine whether the compensation methodologies MCC used
provide cost-effective staffing at the MCAs. For the purposes of the review, the term “cost-
effective” meant whether MCC’s compensation-setting policies and procedures for MCAs were
reasonable and based on sound administrative and professional judgment as outlined in Cost
Principles for Government Affiliates Involved in MCC Compact Implementation.

We conducted our fieldwork in Washington, D.C., from July 26 to December 16, 2013. The
review covered the following 26 MCC compacts:

•   15 active compacts, 14 of which were first compacts: Burkina Faso, Indonesia, Jordan,
    Lesotho, Malawi, Moldova, Mongolia, Morocco, Mozambique, Namibia, Philippines,
    Senegal, Tanzania, and Zambia; the second compact was Cape Verde II.

•   11 closed compacts: Armenia, Benin, Cape Verde, El Salvador, Georgia, Ghana, Honduras,
    Madagascar, Mali, Nicaragua, and Vanuatu.

We examined the internal control environment by identifying and assessing relevant controls. In
particular, we reviewed the following processes:

•   Staffing and salary setting procedures for MCA key staff positions.

•   Approvals for MCA key staff employment contracts, performance evaluations, bonuses, and
    salary increases.

Methodology
To answer our review objective, we reviewed and analyzed the following documents:

•   MCC and MCA policies and guidelines for staffing and setting compensation for MCA key
    staff positions

•   MCA organizational plans and key staff position descriptions

•   MCA salary surveys

•   MCA key staff positions and employment contracts


                                                                                            12
                                                                                    Appendix I


•   MCA human resources policies, including performance appraisals, promotion, bonus,
    retention, whenever available.

We interviewed certain MCC and MCA employees to gain an understanding of their
interpretations of existing recruitment and compensation policies and practices, and the roles,
responsibilities, and approval procedures of MCC and MCA officials for MCA key staff
recruitment and compensation decisions. We interviewed MCC employees in the following
technical capacities: country operations, fiscal accountability, and records management. We
also had teleconferences with employees in MCA-Jordan, MCA-Philippines, and MCA-Zambia.

We sent a survey to all active MCAs, asking them for explanations and documentation about
their key staff recruitment and compensation policies and practices. This showed us what they
had in common and how they differed. The survey is in Table 4 in Appendix III.

We also sought to compare MCC’s compensation policies and practices for MCAs to those of
other U.S. Government agencies and multilateral organizations that employ locals in country
offices. To do this, we interviewed human resources officials and compensation specialists, and
reviewed documentation from the State Department, USAID, and the World Bank.

We did not use any statistical or judgmental sampling to conduct this review. As noted earlier,
we surveyed all active MCAs. In addition, computerized processes were not a significant part of
this review.




                                                                                            13
                                                                                      Appendix II



MANAGEMENT COMMENTS

DATE:        April 30, 2014

TO:           Melinda Dempsey
              Acting Deputy Assistant Inspector General
              Office of Inspector General
              Millennium Challenge Corporation

FROM:         Jonathan o. Bloom
              Acting Vice President
              Department of Compact Operations
              Millennium Challenge Corporation


RE:           MCC’s Response to the OIG’s Draft Audit Report on the “Review of the
              Millennium Challenge Account Employee Compensation,” Report No. M-000-14-
              00X-S, dated February 24, 2014.

The Millennium Challenge Corporation (MCC) appreciates the opportunity to comment on the
Office of Inspector General’s (OIG) draft “Review of the Millennium Challenge Account
Employee Compensation.”

Management Response to Recommendations:

OIG Recommendation #1: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, (1) implement comprehensive, specific guidance
for Millennium Challenge Accounts on key staff compensation practices such as determining
salaries, conducting performance evaluations, and awarding performance-based bonuses, and
(2) determine and document if and how the Millennium Challenge Corporation should use
compensation specialists to help develop the guidance.

MCC Management Response #1: MCC concurs with this Recommendation. In response to
this OIG recommendation, and also as part of an internal Corrective Action Plan already under
development in response to MCC’s own review by its division of Investment and Risk
Management (“IRM”), MCC plans to evaluate the overall process and procedures for initial set-
up and approval of MCA compensation structures, subsequent modifications, and approval of
key staff. At the end of this review, a working group will develop a comprehensive process and
procedures to provide direction and oversight for the adoption of appropriate compensation
packages for individual MCAs, which will include when and how compensation packages should
be determined. This review will further recommend steps to professionalize the human
resources process at individual MCAs. This review is targeted for completion on or before
September 30, 2014.

The review will also consider whether the use of a compensation specialist for MCC in some
form would be useful, given the diverse range of markets where MCC is engaged, and if so,

                                                                                           14
                                                                                            Appendix II


how that specialist should best be utilized.

This constitutes MCC’s Management Decision.

OIG Recommendation #2: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, require that (1) each Millennium Challenge
Account establish the roles and responsibilities for all those involved in the oversight process for
Millennium Challenge Account key staff compensation decisions, including, the role of a
compensation specialists and how and when they should be utilized; and (2) the Millennium
Challenge Corporation specify which documents pertaining to Millennium Challenge Account
employment and staffing should require a Millennium Challenge Corporation formal no-
objection.

MCC Management Response #2: MCC concurs with this Recommendation. As an outcome
from the Corrective Action Plan for recommendation # 1, MCC will also provide guidance to the
MCAs in establishing roles and responsibilities for all those involved in the oversight process for
MCA key staff compensation decisions and to enhance its formal MCC oversight on MCA
human resource issues. MCC will also provide guidance on when it may be necessary to use a
compensation specialist.. MCC’s model varies from that of other international development
partners, such as USAID. In MCC’s case, the MCAs are not missions of MCC such as in USAID
and nor is there are direct employer-employee relationship as with Department of State Locally
Engaged Staff. By definition, MCAs are individual entities usually with a finite lifespan whose
structures are customized to the complexity of the compact programs and labor market
circumstances in the country. As such, MCC expects that there will be some variability in the
compensation structures of the many MCAs we work with.

MCC is already implementing this recommendation through the April 1, 2014 version of MCC’s
Cost Principles for Accountable Entity Operations (see excerpt on Compensation as Attachment
# 1).

Regarding (2) MCC concurs with the recommendation and has addressed it in full as outlined in
Attachment 2 to this memorandum.

This constitutes Management Decision.

OIG Recommendation #3: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, require Millennium Challenge Accounts to
conduct and document periodic reviews to verify and ensure that Recommendation #1 and #2
are implemented.

MCC Management Response #3: MCC concurs with this Recommendation.

As a result of the corrective action plan for Recommendations #1 and #2, MCC will provide
concrete steps for ensuring that a review process is in place. Note that in addition, Section
4.5(g) of the OIG approved MCC Guidelines for Financial Audits Contracted by the Millennium
Challenge Corporation’s Accountable Entities (August 7, 2013) already requires auditors, as
part of their periodic financial statement audits of MCAs, to review direct salary charges to
determine whether salary rates are reasonable for MCA positions in accordance with those
salary rates approved by MCC (when MCC approval is required), and that those salary charges
are supported by appropriate payroll records; and, to determine whether allowances and fringe
benefits received by MCA employees are in accordance with the agreements and applicable

                                                                                                 15
                                                                                        Appendix II


laws and regulations.

In addition, and as of December 3, 2013, MCC has increased its oversight and reporting
requirements for the selection of Key Staff, members of the Board of Directors, and final MCA
Employment Agreements and subsequent revisions. For specific details, see Attachment 2.

This constitutes Management Decision.

OIG Recommendation #4: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, implement a training plan for Millennium
Challenge Account officials with oversight responsibilities for compensation practices and
decisions.

MCC Management Response #4: MCC concurs with this Recommendation. The existing
level of compensation oversight by the MCAs can be enhanced and should not be left
exclusively to the MCA. In its governance function, each MCA’s Board of Directors has a
significant fiduciary role. The Department of Compact Operations and the Office of General
Counsel will jointly develop and implement a training plan for each MCA’s Board to address its
compensation oversight responsibilities by September 30, 2014.

This constitutes Management Decision.


OIG Recommendation #5: We recommend that the Vice President of Compact Operations
document a comprehensive, systematic approach to confirm that compact records, including
key staff records, are retained at Millennium Challenge Corporation headquarters in compliance
with its Policy and Procedures for Compact-Related Federal Recordkeeping.

MCC Management Response #5: MCC concurs with this Recommendation. Retention of
MCA key staff selection and compensation records are not consistently retained by various
Implementation Support Teams (“IST”) at MCC. Prior to November 1, 2013, MCC did not
formally require that ISTs specifically require a non-objection on compensation of MCA key staff
which explains why key selection/employment records were not consistently retained at MCC’s
headquarters. As noted in Response #1 above, MCC is conducting a comprehensive review of
the processes related to MCA compensation packages. See also Attachment 2 for changes to
the MCC approvals matrix designed to ensure retention of key staff records by MCC
Implementation Support Teams (ISTs).

In addition, the response plan for OIG Recommendation #1 will specifically document the record
retention process. This action will be completed no later than September 30, 2014.

This constitutes Management Decision.

OIG Recommendation #6: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, designate the responsibility for overseeing
Millennium Challenge Accounts compensation.

MCC Management Response #6: MCC concurs with this Recommendation. The various
MCC ISTs are vested with the responsibility to oversee MCA compensation. The ISTs are in the
best oversight position since the context of MCA hiring varies widely from partner country to
partner country and is driven by a wide range of factors such as complexity of the compact,

                                                                                             16
                                                                                           Appendix II


labor market conditions, etc.

In order to strengthen MCC’s oversight of MCA compensation, MCC is also implementing the
following updates:
   •   MCC recently updated its standards of clearance and the approvals matrix “Addendum to
       the Section III, standards of clearance for key personnel” (see Attachment 2)
   •   MCC recently revised its Cost Principles for Accountable Entity Operations to expand
       and provide specific guidance on oversight of MCA key staff compensation. MCC
       released the updated the Cost Principles on April 1, 2014.

This constitutes Management Decision and Final Action for this Recommendation.

OIG Recommendation #7: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, implement a systematic method of sharing
information about Millennium Challenge Account staffing and compensation materials, tools,
and approaches among headquarters and Millennium Challenge Account employees.

MCC Management Response #7: MCC concurs with this Recommendation.

MCC agrees that better methods of sharing information would be beneficial in some regards.
MCC currently provides and shares tools. General guidance currently exists on www.mcc.gov
for the development of Compacts and initial setup of MCAs. MCC also holds practice-related
colleges each year to which key MCA staff are invited. The focus of these colleges is learning
and information-sharing on relevant topics. The MCC website, and the transfer of knowledge
and documentation between MCC-MCA counterparts already provide structured, systematic
ways for sharing information between MCC headquarters and the MCAs.

The Millennium Challenge Corporation is planning to create a portal to enhance communication
and sharing of information pertaining to MCAs’ compact implementation processes
(e.g., capacity-building materials, guidance, tools, procedures, etc.) via a web platform called
“MCA-1”. Each practice group (e.g. Fiscal Accountability, Procurement, etc.) will have a sub-site
on “MCA-1” with sector-specific communication and information (i.e., capacity-building
materials, guidance, tools, procedures, etc.). Fiscal Accountability will include on its sub-site
compensation and staffing guidance, among other materials. In the near term “MCA-1” will
facilitate information sharing between MCC and the MCAs as well as among MCAs via
discussion forums. The MCA-1 platform is due to be rolled out to MCAs during Q3 FY2014.

Finally, in the interest of better transfer of knowledge across the full compact lifecycle, the MCC
Fiscal Accountability practice will also consider expanding access to fiscal colleges to MCAs
that are closing and MCAs that are still nascent.

MCC is aware of the sensitivity and confidentiality of some forms of compensation materials. It
is important to note that much of an MCA’s compensation practice is highly tailored to the
country’s local labor law, and the country’s labor market conditions. Agreements between MCC
and the host government on compensation-related information must be approached cautiously
and managed carefully, as the information is sensitive, private, and may be legally protected.

This constitutes Management Decision.

OIG Recommendation #8: We recommend that the Millennium Challenge Corporation’s Vice

                                                                                                17
                                                                                         Appendix II


President, Department of Compact Operations, implement an action plan to complete the hiring
of key staff before compact implementation in accordance with its Guidelines for Accountable
Entities and Implementation Structures.

MCC Management Response #8: MCC concurs with this Recommendation.
MCC concurs with the Recommendation, in so far as it concurs that key staff should be hired
before compact implementation and that MCC has adequate policies and procedures in place to
monitor compliance with such. Under a compact, an MCA should hire its key staff before entry
into force of a compact pursuant to MCC’s Guidelines for Accountable Entities and
Implementation Structures. Under the Program Implementation Agreement, which agreement
specifies the terms for implementing a compact, key staff must be hired as a condition to initial
disbursement of program funding. Through these requirements, MCC exercises extensive
oversight to ensure that each MCA is properly staffed at entry into force. For example, MCC
works with MCAs to develop and implement a staffing or comparable plan when establishing the
MCA. MCC believes these requirements and accompanying process are sufficient to meet the
individual needs of each compact program. Any further process would undermine the flexibility
that MCC must retain to modify and waive this requirement when circumstances warrant such.
In some cases, MCC has determined that the needs of a program and its implementation
readiness justify waiving this hiring requirement.

This constitutes Management Decision and Final Action for this Recommendation.



The actions specified above and associated Attachments constitute Management Decision on
each of the Recommendations.

If you have any questions or require any additional information, please contact Mahmoud Bah,
Fiscal Accountability Practice Lead at 202-521-3653.




                                                                                              18
                                                                                     Appendix III


            Background on the Composition and Administrative Budgets of MCAs

Details on administrative and staffing costs for each MCA can be found in the tables below.

      Table III-1. MCA Administrative Budgets for Active and Closed Compacts* (Unaudited)
                                                          Total Budgeted
                                          Total MCA       MCA Salary       Percentage of Salaries
     Compact          Compact
                                          Administrative  Costs per        per Administrative
     Country**        Amount
                                          Budget***       Administrative Budget
                                                          Budget
1    Honduras               205,000,000         9,267,500        8,340,750          90
2    Cape Verde             110,078,488         7,991,211       6,051,064           76
3    Georgia                395,300,000        11,754,839       7,124,160           61
4    Vanuatu                 65,690,000         1,534,873       1,412,533           92
5    Armenia                235,650,000         5,717,500       3,626,242           63
6    Benin                  307,298,040        29,129,057      17,304,887           59
7    El Salvador            460,940,000        18,705,630       9,367,108           50
8    Mali                   460,811,164        16,162,967       8,010,127           50
9    Lesotho                362,551,000        17,381,140      11,887,348           68
10   Mongolia               284,911,363        25,756,663       9,897,280           38
11   Morocco                697,500,000        47,652,628      23,574,337           49
12   Mozambique             506,924,053        25,096,166      14,573,450           58
13   Tanzania               698,136,000        15,673,850      10,788,427           69
14   Burkina Faso           480,943,569        29,081,345      19,306,739           66
15   Namibia                304,500,000        31,212,319      23,652,123           76
16   Malawi                 350,700,000        19,382,000      11,609,221           60
17   Moldova                262,000,000        14,676,275       3,666,849           25
18   Philippines            433,910,000        24,661,260      10,528,588           43
19   Zambia                 354,757,640        25,369,300      14,813,076           58
20   Cape Verde II           66,230,000         6,003,561       4,468,722           74
      Totals:                7,043,831,317        382,210,084       220,003,031        58
* MCC provided data for the total administrative budgets and local MCA salary costs.
** MCC could not provide data for Ghana, Indonesia, Jordan, Madagascar, Nicaragua, and Senegal.
*** The amount does not include MCA funds spent on MCA consultants, fiscal or procurement agents,
and audit activities.




                                                                                               19
                                                                             Appendix III


           Table III-2. Examples of MCA Key Staff Coming on Board After Entry Into Force
                               Number
                  Entry Into
                               of Total                                                On Board
    Country       Force                  Key Staff Position
                               Key                                                     Date
                  Date
                               Staff
    Burkina                                                                            October
1                 July 2009       10     Monitoring and Evaluation Director
    Faso                                                                               2009
                                         Chief Economist                               May 2013
                                         Procurement Modernization Project Director    May 2013
2   Indonesia     April 2013      16     Chief Financial Officer                       May 2013
                                         Community-Based Nutrition Project Director    June 2013
                                         Legal Director                                June 2013
                  September                                                            October
3   Lesotho                       11     Procurement Director
                  2008                                                                 2008
                                                                                       October
                                         Roads Directors
                  September                                                            2010
4   Moldova                       12
                  2010                                                                 October
                                         Procurement Director
                                                                                       2010
                                                                                       November
                                         Deputy Director General
                                                                                       2008
                  September                                                            March
5   Morocco                       13     Finance Director
                  2008                                                                 2009
                                                                                       February
                                         Director of Financial Projects
                                                                                       2009
                                                                                       November
                                         Deputy Chief Executive Officer Operations
                  September                                                            2009
6   Namibia                       13
                  2009                                                                 March
                                         Monitoring and Evaluation Director
                                                                                       2010
                                         Management Information Systems Director       July 2011
                                         Secondary National Roads Project Director     June 2011
                                                                                       September
                                         Internal Auditor
7   Philippines May 2011          13                                                   2012
                                         Procurement Director                          May 2012
                                                                                       January
                                         Environment and Social Performance Director
                                                                                       2012
                  September                                                            October
8   Senegal                       12     Officer of Quality
                  2010                                                                 2010


Table III-3. Recruitment Process for MCA Key Staff

During compact development, usually 6 to 9 months before signing a compact, MCC and the
partner country work together to begin the recruitment process for MCA key staff. Although
MCC officials said there is no one-size-fits-all approach to staffing the MCAs, the following are
some of the major milestones or steps in the process:

1. To kick off the recruitment process, the MCC country team and the partner country’s core
   team work together to develop position descriptions.

2. Though not a formal MCC requirement, MCC usually conducts a salary survey for key staff
   positions. It is either done in-house or contracted out to a local or international firm.


                                                                                              20
                                                                              Appendix III


3. Though not a formal MCC requirement, it is common practice for the partner country to hire
   a firm to oversee the recruitment process for MCA key staff positions. The recruitment firm’s
   duties vary from advertising, coordinating the interview process, and producing a report that
   ranks the interviewees.

4. Key staff positions are advertised locally, regionally, or internationally depending on whether
   the skills needed are readily available locally.

5. The MCA chief executive officer is the first key staff position appointed so that he/she can
   provide input on the selection process of other key staff. This can be done before the
   compact is signed if the legal structure of the accountable entity has already been formed.

6. Candidates are shortlisted, and interview panels are formed. They usually include the MCA
   CEO, MCA board members, and other technical experts. Though not a formal MCC
   requirement, the MCC country team lead for developing the compact and/or MCC technical
   personnel serve as observers on interview panels.

7. The recruitment firm drafts a report that ranks the interviewed applicants. This report is
   cleared by the interview panel and is sent subsequently to the MCC country team for
   approval.

8. Upon approval from the MCC country team, MCA offers employment letters to the selected
   candidates.

Table III-4. OIG Questionnaire for MCA Active Compacts

1. Can you please confirm the total number of MCA key staff positions?

2. What MCA key staff positions are occupied by country nationals? Do you have any positions
occupied by noncountry nationals?

3. What MCA key staff positions are occupied by someone who previously served as a member
of the compact development team?

4. What is the approval process for performance evaluation/appraisal and salary adjustments,
including bonuses for the following positions (i.e., who approves performance evaluations,
salary adjustments, bonuses):
a. MCA CEO or managing director
b. MCA deputy CEO or deputy managing director
Please provide signed copies of your MCA CEO/managing director and deputy CEO’s most
recent performance appraisal.

5. Does the MCA have formal written guidance or policies in the five areas noted below. If yes,
please provide OIG a copy of the policy and/or guidance:
a. Performance evaluation/appraisal
b. Bonus policy
c. Salary increases
d. Promotion
e. Retention

6. Has MCC provided MCA written policy that explicitly states which employee compensation

                                                                                               21
                                                                            Appendix III


decisions made at the MCAs require MCC approval/no objection? If yes, please provide OIG a
copy.

7. Does the MCA have an employee handbook? If yes, please provide OIG a copy.

8. Please provide OIG a copy of your fiscal accountability plan.

9. Has your MCA encountered any turnover of key staff? If yes, can you please indicate the
position, duration of MCA key staff member in his/her position, and the reason for his/her
departure.

10. Does the MCA board have a document that clearly delineates its roles and responsibilities in
regard to MCA staffing and compensation? If yes, please provide OIG a copy.




                                                                                             22
U.S. Agency for International Development
         Office of Inspector General
        1300 Pennsylvania Avenue, NW
            Washington, DC 20523
              Tel: 202-712-1150
              Fax: 202-216-3047
             http://oig.usaid.gov
